         Audit Report




   OIG-06-044

   FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of
   OFAC Compliance Was Hampered by Limited Documentation

   September 26, 2006




Office of
Inspector General
Department of the Treasury
Contents


Audit Report....................................................................................................1

    Results in Brief...............................................................................................2

    Background .......................................................................... ……………………4

    Audit Results ........................... ……………………………………………………………7

    Recommendations ........................................................................................12


Appendices

    Appendix 1: Objective, Scope, and Methodology .............................................14
    Appendix 2: Bank Secrecy Act/Anti-Money Laundering Examination Manual
                Excerpt – Core Examination Procedures ........................................16
    Appendix 3: Management Response ...............................................................20
    Appendix 4: Major Contributors to this Report .................................................22
    Appendix 5: Report Distribution .....................................................................23


Abbreviations

    AML              Anti-Money Laundering
    BSA              Bank Secrecy Act
    FFIEC            Federal Financial Institutions Examination Council
    OFAC             Office of Foreign Assets Control
    OIG              Office of Inspector General
    OTS              Office of Thrift Supervision




                         FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC                         Page i
                         Compliance Was Hampered by Limited Documentation (OIG-06-044)
        This page intentionally left blank.




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page ii
Compliance Was Hampered by Limited Documentation (OIG-06-044)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                      September 26, 2006

                      John M. Reich
                      Director
                      Office of Thrift Supervision

                      As a follow-up to a previous OIG report,1 we conducted an audit of
                      the Office of Foreign Assets Control’s (OFAC) administration and
                      enforcement of economic sanctions against targeted foreign
                      countries, individuals, and groups. OFAC acts under presidential
                      wartime and national emergency powers, as well as authority
                      granted by specific legislation, to impose controls on transactions
                      and freeze foreign assets under US jurisdiction. OFAC sanctions are
                      enforced largely by financial institutions. Because OFAC is legally
                      limited in its ability to monitor financial institutions’ compliance
                      with foreign sanction requirements,2 it depends on financial
                      institution regulators, such as the Office of Thrift Supervision
                      (OTS), to ensure that financial institutions comply with OFAC
                      requirements. Accordingly, as part of our OFAC audit, we tested
                      regulator oversight of OFAC compliance for a sample of financial
                      institutions to determine whether OFAC’s foreign sanctions
                      programs were being effectively administered. This report presents
                      the results of the review we conducted of OTS compliance
                      examinations.

                      We conducted our audit from January to September 2005 in
                      accordance with generally accepted government auditing
                      standards. A more detailed description of our objective, scope, and
                      methodology is included in appendix 1.

1
  FOREIGN ASSETS CONTROL: OFAC’s Ability to Monitor Financial Institution Compliance Is Limited
Due to Legislative Impairments, (OIG-02-082, April 26, 2002).
2
  Section 3412 (d) of the Right to Financial Privacy Act (12 U.S.C. 3401) allows supervisory agencies
to exchange examination information with other supervisory agencies. OFAC is not included in the act’s
list of supervisory agencies [§ 3401(7)].




                      FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC               Page 1
                      Compliance Was Hampered by Limited Documentation (OIG-06-044)
Results in Brief
                          OTS’s OFAC examination work papers did not provide us with
                          assurance that federal and state-chartered thrift institutions3 were
                          adequately reviewing or effectively administering OFAC’s foreign
                          sanctions programs. From a sample of 12 OTS thrift examinations
                          conducted from fiscal years 2002 through 2004, we found, for
                          every examination, one or more instances in which documentation
                          was insufficient to verify that examiners adequately assessed
                          OFAC program compliance. Specifically, the OTS examination work
                          papers did not always contain sufficient documentary evidence to
                          demonstrate that examiners fully assessed
                              •   policies and procedures for the OFAC compliance program,
                              •   internal audit results for possible OFAC program concerns,
                                  and
                              •   OFAC penalty or warning notices that had been sent to
                                  thrifts.
                          Although we conducted a limited review of only 12 thrift
                          examinations, we believe, based on discussions with OTS officials,
                          that a larger sample would have produced similar results. OTS
                          officials agreed but noted that documentation of OFAC
                          examinations is generally minimal unless a problem is noted. OTS
                          examination work papers are “exception-based” and if an examiner
                          concludes that an institution is OFAC-compliant, there is no
                          requirement that the examiner maintain copies of documentation to
                          support that conclusion. We believe, however, that this policy
                          makes it difficult to assess the adequacy of examinations and
                          creates inconsistency in how program results are documented.

                          For the period under review, OTS had only limited guidance for
                          conducting and documenting OFAC compliance examinations.
                          However, OTS issued the Examination Handbook in November
                          20044 and new guidance in March and April 2005 that clarified and

3
    A thrift institution is the general term for savings banks, and savings and loan associations.
4
    OTS updated the Examination Handbook in July 2005.




                          FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC                Page 2
                          Compliance Was Hampered by Limited Documentation (OIG-06-044)
                       expanded the procedures that OTS examiners are to follow during
                       compliance examinations. These documents were the first updates
                       on conducting OFAC compliance examinations that OTS had issued
                       since 1999.

                       In addition, in June 2005, the Federal Financial Institutions
                       Examination Council (FFIEC),5 of which OTS is a member, issued
                       the Bank Secrecy Act/Anti-Money Laundering Examination Manual,
                       which contains uniform financial institution regulator examination
                       procedures that deal with Bank Secrecy Act/anti-money laundering
                       (BSA/AML) compliance. Examination procedures for OFAC
                       compliance are included in the manual.

                       Later in this report, we discuss our concerns about OTS
                       examinations of thrifts’ compliance with OFAC. If OTS examiners
                       follow the OTS Examination Handbook, recent OTS guidance
                       related to OFAC compliance examinations, and the FFIEC Bank
                       Secrecy Act/Anti-Money Laundering Examination Manual
                       (BSA/AML Examination Manual), our concerns about OTS
                       compliance examinations should be alleviated.

                       We are making recommendations to OTS to ensure that examiners
                       use the (1) pertinent policies and procedures in the FFIEC Bank
                       Secrecy Act/Anti-Money Laundering Manual and in the OTS
                       Examination Handbook and policy directives when examining thrifts
                       for OFAC compliance, and (2) OFAC scoping and planning
                       procedures from the FFIEC Bank Secrecy Act/ Anti-Money
                       Laundering Examination Manual to document the OFAC procedures
                       performed and include the procedures and the basis for OFAC
                       conclusions in the workpapers.



5
  FFIEC, established under title X of the Financial Institutions Regulatory and Interest Rate Control Act
of 1978, is a formal interagency body empowered to prescribe uniform principles, standards, and report
forms for the examination of financial institutions by federal regulators. The members of FFIEC, in
addition to OTS, are the Office of the Comptroller of the Currency, the Federal Deposit Insurance
Corporation, the Board of Governors of the Federal Reserve System, and the National Credit Union
Administration.




                       FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC                 Page 3
                       Compliance Was Hampered by Limited Documentation (OIG-06-044)
             OTS concurred with our recommendations. OTS said in its
             response that examinations since August 2005 have included an
             OFAC compliance component that follows the applicable policies
             and procedures in the BSA/AML Examination Manual, the OTS
             Examination Handbook, and OTS policies and procedures. With
             regard to documenting work performed, OTS also plans to issue
             and implement examiner guidance to enhance OFAC procedures in
             the fourth calendar quarter of 2006.

Background
             OFAC’s Mission and Sanctions Programs

             The mission of OFAC, an office within the Department of the
             Treasury, is to administer and enforce economic and trade
             sanctions based on U.S. foreign policy and national security goals
             against targeted foreign countries, terrorists, international narcotics
             traffickers, and those engaged in activities related to the
             proliferation of weapons of mass destruction. All U.S. persons,
             including U.S. banks, bank holding companies, and nonbank
             subsidiaries, must comply with OFAC regulations.

             OFAC publishes a list of individuals and companies owned or
             controlled by, or acting for or on behalf of, targeted countries. The
             list also contains individuals, groups and entities, such as terrorists
             and drug traffickers. Collectively, such individuals, and entities are
             called “Specially Designated Nationals” or “SDNs.”

             OFAC regulations involve blocking accounts and other assets of the
             specified countries, entities, and individuals and rejecting financial
             transactions with specified countries, entities, and individuals.
             OFAC has the authority to impose civil monetary penalties against
             financial institutions for failure to block or reject prohibited
             transactions.

             OFAC sanctions can reach into virtually all areas of banking
             operations. Therefore, banks need to consider all types of




             FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC       Page 4
             Compliance Was Hampered by Limited Documentation (OIG-06-044)
transactions, products, and services when they conduct risk
assessments and establish appropriate policies and procedures.

OTS Role in Ensuring Thrifts’ Compliance with OFAC Regulations

OTS’s mission is to supervise thrifts, and their holding companies,
in order to maintain their safety and soundness and assure
compliance with consumer laws, as well as to encourage a
competitive industry that meets U.S. financial services needs. As
of June 2006, OTS regulated 854 thrifts with total assets of $1.53
trillion.

In its examinations of thrifts, OTS evaluates their OFAC compliance
programs. However, none of the laws that authorize sanctions for
OFAC violations contain specific language that delegates
administrative enforcement responsibility to any of the financial
institution regulatory agencies, including OTS. Consequently,
OTS’s OFAC enforcement responsibilities fall under its general
examination responsibility to ensure that thrifts are following
applicable laws and regulations.

Financial institutions, including thrifts, are not required by a specific
regulation to establish an OFAC compliance program. Nonetheless,
OTS has recommended that thrifts establish and maintain effective
OFAC programs as a matter of good banking practice. If an OTS
examiner determines that a thrift’s OFAC compliance program is
inadequate, the examiner would consider citing the thrift for an
unsafe or unsound banking practice.

OTS Examination Guidelines for OFAC Compliance

On April 11, 2002, the director of OTS announced an initiative to
improve the examination process by combining the safety and
soundness and the compliance examination functions. Instead of
having two separate teams (safety and soundness and
compliance), each performing its own examination and issuing its
own report, OTS would conduct a comprehensive examination that
produced one report.




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC        Page 5
Compliance Was Hampered by Limited Documentation (OIG-06-044)
For examinations conducted prior to mid-March 2005, OTS
examiners used only section 415 “Economic Sanctions,” in the
OTS Compliance Activities Regulatory Handbook, issued in
December 1999, to assess OFAC-related compliance. The initial
OFAC-related examination objective has been to determine whether
the financial institution is aware of the Treasury regulations that
impose economic sanctions against certain countries.

OTS examiners also review the thrift’s internal audit or compliance
program procedures for ascertaining whether the institution is in
compliance with the regulations and whether the procedures were
included in the internal audit’s scope.

Recent OTS Guidelines for OFAC Compliance Examinations

The OTS Examination Handbook, issued in November 2004,
stressed that all examinations should be risk-focused, meaning that
more time should be expended examining higher-risk areas within
an organization. Scoping is an integral part of a risk-focused
examination because it helps examiners target higher-risk areas for
review and determine which OTS examination procedures are
appropriate to use.

During our review, OTS issued additional guidance regarding the
examination of OFAC compliance. Examiners were directed to
review the thrifts’ written policies and procedures for complying
with OFAC regulations, as well as the thrifts’ work papers and
documentation developed through self-assessments, periodic
transaction reviews, or audits.

In addition, examiners were to review blocked or rejected
transactions and documentation and procedures relating to how
potential OFAC violations were reviewed and cleared. Finally,
examiners were to review all correspondence that OFAC may have
had with the thrift.




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 6
Compliance Was Hampered by Limited Documentation (OIG-06-044)
                FFIEC Core Examination Procedures for OFAC Compliance

                In June 2005, FFIEC released the BSA/AML Examination Manual.
                The manual includes core procedures for examiners to use to
                determine whether financial institutions are in compliance with
                OFAC sanctions programs. (See appendix 2 for the core
                examination procedures relating to OFAC.)

                According to the BSA/AML Examination Manual, financial
                institutions should use a risk-based approach when considering the
                likelihood of encountering possible OFAC violations. The manual
                recognizes that a fundamental element of sound OFAC compliance
                is a bank’s assessment of its product lines, customer base,
                geographic location, the nature of its transactions, and the
                identification of high-risk areas for OFAC transactions.

                The manual also provides guidance for the use of transaction
                testing by examiners to assess the adequacy of a financial
                institution’s OFAC program. Examiners, after performing a review
                of the thrift’s risk assessment, prior examination reports and a
                review of the bank’s audit findings, have the option of performing
                transaction testing.


Audit Results
                OTS’s examination work papers lacked sufficient documentation to
                assure us that thrifts were adequately reviewing or administering
                OFAC sanctions programs. Our review of OTS examinations of 12
                thrifts from fiscal years 2002 through 2004 found instances of
                inadequate documentation for critical examinations steps.
                Specifically, we found instances in which there was little or no
                documentation that examiners had done the following:

                   •   Evaluated whether compliance procedures were implemented
                       (12 thrifts)
                   •   Verified the thrift’s internal audit results of OFAC compliance
                       (7 thrifts)




                FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 7
                Compliance Was Hampered by Limited Documentation (OIG-06-044)
   •   Reviewed the thrift’s compliance program policies and
       procedures (6 thrifts)
   •   Referenced an OFAC penalty notice (1 thrift) or OFAC
       warning letters (3 thrifts) or in any way changed their review
       scope as a result of the notice or letters
   •   Used the thrifts’ prohibited and rejected transactions to
       refine the scope of their review (4 thrifts)

Our efforts to evaluate and verify the examiners’ conclusions were
hampered by the lack of documentation. If examiners conclude that
an institution is OFAC compliant, OTS does not require that
documentation be maintained and available to support their
conclusions. As a result, documentation is often not available to
allow an external reviewer to verify and assess the examiners’
conclusions. OTS guidelines do not specify the level of testing or
the supporting documentation needed to substantiate OFAC
compliance results.

The OTS Examination Handbook stresses that proper examination
documentation of procedures and subsequent conclusions should
leave an effective audit trail. However, the handbook also directs
examiners to avoid excessive documentation and include only
information that is relevant or may require follow-up. In addition,
examiners are reminded that the time spent recording extraneous
information would be better used to examine high-risk areas. OTS
management expressed concern that our request for
documentation would be contrary to OTS’s longstanding standard
practice, unduly time-consuming and incompatible with the
agency’s migration to an electronic work paper format.

As of April 2005, OTS issued additional written policies,
procedures and guidance to improve its OFAC examination
program. In addition, the FFIEC issued, in June 2005, the
BSA/AML Examination Manual which provides for uniform
BSA/AML examination procedures for financial institution
regulators to use to assess OFAC compliance. These new
examination policies, procedures, and guidance, if followed, should
improve examination coverage.



FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC        Page 8
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Description of Our Review

To assess OTS examinations of thrifts’ compliance with OFAC
regulations, we judgmentally selected a sample of 12 thrift
examinations that OTS conducted in fiscal years 2002 through
2004. Our sample included 1 thrift that had received an OFAC
penalty notice and 3 thrifts that had received OFAC warning letters
for failing to comply with OFAC regulations. The remaining 8 thrifts
were selected based on asset size and geographic location.

As of September 2005, the average asset value of a thrift
regulated by OTS is approximately $1.6 billion. Our sample focused
on thrifts that exceeded the average asset size and that were
therefore more likely to have numerous and complex transactions.
As a result, we selected 4 thrifts with asset values between
$2.0 billion and $10.6 billion and 4 additional thrifts with asset
values that ranged from $15.7 billion up to $96.1 billion.
To achieve geographical coverage, our sample included thrifts from
the 4 OTS regions. We reviewed OFAC examinations for 2 thrifts
each in Florida, California and Texas. The remaining thrifts were
located in New York, Virginia, Wisconsin, New Jersey, Delaware,
and Utah.

For each of the 12 thrifts in our sample, we requested copies of
the most recent examination work papers that included a review of
OFAC compliance. In addition, we requested copies of all
documentation that may have affected the scope of the OFAC
reviews. The examination records were compiled by the OTS
special counsel and were reviewed at OTS headquarters in
Washington, D.C.

OTS Examinations Did Not Always Document Thrifts’ Internal Audit
Results

In reviewing a thrift, OTS examiners are expected to determine
whether the institution’s internal audit procedures include
provisions to evaluate efforts to achieve OFAC compliance. Five of
the 12 OTS examinations had documentation that verified that the



FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 9
Compliance Was Hampered by Limited Documentation (OIG-06-044)
financial institutions had adopted and implemented internal audit or
independent reviews that included OFAC compliance.

Seven of the OTS examinations had no such evidence in the work
papers. Four examinations contained statements that cited the
results of internal reviews but lacked documentary evidence to
support the statements. The remaining 3 examinations made no
reference as to whether internal reviews of OFAC compliance were
conducted.

OTS Examinations Lacked Documentary Evidence of Review of
Implementation of Thrifts’ OFAC-Related Policies and Procedures

According to the guidance available in section 415 of the OTS
Compliance Activities Regulatory Handbook, examiners should
determine whether a thrift is satisfactorily aware of its OFAC-
related responsibilities. The guidance did not offer methods for
determining thrift awareness or specify the documentation required
to support the conclusions. Our review found that work papers for
10 of the 12 thrift examinations included copies of OFAC-related
policies and procedures and that work papers for 2 of the thrift
examinations contained no evidence of OFAC-related policies and
procedures.

OTS examiners provided little evidence in their work papers that
they had verified or conducted any testing of the validity or
reliability of the thrifts’ OFAC-related policies and procedures. Six
of the 12 examinations in our sample contained statements that
OFAC-related policies and procedures were reviewed, but work
paper documentation failed to provide evidence that the work had
been performed and to support the conclusions reached. In
addition, we saw no work paper evidence in any of the 12
examinations that transactional testing had been conducted to
evaluate whether the OFAC-related policies and procedures were
being implemented.




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 10
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Documentation Was Lacking that OFAC Warning Letters Affected
Scope of Examinations

Our sample of 12 thrifts included 3 thrifts that had received OFAC
warning letters and 1 thrift that had received an OFAC penalty
notice. OFAC personnel informed us that copies of warning letters
and penalties are routinely sent to OTS personnel.

OTS personnel confirmed that copies of warning letters and penalty
notices were sent to examiners’ offices for future OFAC reviews.
However, in our review of the OTS work papers for the
examinations of the 3 thrifts that received OFAC warning letters,
we found no references by the examiners to those letters. In the
case of the thrift that received a penalty notice, our review of the
examination work papers found evidence that the thrift had notified
the OTS examiner of the existence of the notice and that the
examiner did perform additional work to ensure that the thrift was
in compliance in the area of concern.

Documentation Was Lacking that Existence of Prohibited and
Rejected Transactions Affected Scope of Examinations

Four of the 12 thrifts in our review had reported prohibited or
rejected transactions to OFAC. The thrifts reported these
transactions to their OTS examiners, who documented them in the
work papers. However, there was no evidence that the examiners
had knowledge of these prohibited transactions before they
initiated their examinations or that they used such information to
refine the scope of the examinations.

Conclusions

The comprehensive examination guidelines contained in the FFIEC
BSA/AML Examination Manual and the transaction testing options
for OFAC compliance necessitate that examiners carefully choose
those procedures that meet the specific risks associated with a
particular institution. Therefore, it is critical that OTS examiners
justify and document their decisions regarding the scope of their
work and their basis for selecting certain procedures for review and



FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 11
Compliance Was Hampered by Limited Documentation (OIG-06-044)
             specific transactions for testing (if testing is utilized). OTS
             management should ensure that such decisions and conclusions are
             adequately documented in examiners’ workpapers.

Recommendations

             We recommend that the Director of OTS ensure that OTS
             examiners do the following:

             1. Use the pertinent policies and procedures in the FFIEC Bank
                Secrecy Act/ Anti-Money Laundering Examination Manual and in
                the OTS Examination Handbook and policy directives when
                examining thrifts for OFAC compliance.

             2. Use the OFAC scoping and planning procedures from the FFIEC
                Bank Secrecy Act/ Anti-Money Laundering Examination Manual
                to document the OFAC procedures performed and include the
                procedures and the basis for OFAC conclusions in the
                workpapers.

             Management Response

             OTS concurred with the first recommendation and reported that,
             starting August 2005, all new OTS examinations with an OFAC
             compliance component are following the applicable policies and
             procedures contained in the BSA/AML Examination Manual, the
             OTS Examination Handbook, and OTS policies and procedures.
             OTS agreed with the second recommendation and will issue and
             implement examiner guidance to ensure enhancement of OFAC
             procedures in the fourth calendar quarter of 2006.

             OIG Comment

             We believe that the actions OTS states in its response, if
             implemented as described, address the intent of our
             recommendations.




             FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 12
             Compliance Was Hampered by Limited Documentation (OIG-06-044)
                               ******



We would like to extend our appreciation to OTS’s Special Counsel
and other officials for the cooperation and courtesies extended to
our staff during the audit. If you have any questions, please
contact me at (617) 223-8640.



/s/
Donald P. Benson
Director




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 13
Compliance Was Hampered by Limited Documentation (OIG-06-044)
                       Appendix 1
                       Objective, Scope, and Methodology




                       Our objective was to determine the effectiveness of Office of Thrift
                       Supervision (OTS) examination efforts to ensure financial institution
                       compliance with Office of Foreign Assets Control (OFAC)
                       requirements. This audit was performed in conjunction with an
                       audit of OFAC’s administration and enforcement of economic
                       sanctions against targeted foreign countries, groups, and
                       individuals. Because OFAC is legally limited in its ability to monitor
                       financial institutions’ compliance with foreign sanction
                       requirements, OFAC depends on financial institution regulators,
                       such as OTS, to ensure that the institutions comply with OFAC
                       requirements.

                       This audit followed up on our prior report “FOREIGN ASSETS
                       CONTROL: OFAC’s Ability To Monitor Financial Institution
                       Compliance Is Limited Due To Legislative Impairments,”6 which
                       noted the lack of transaction testing during OTS examinations of
                       OFAC compliance.

                       We reviewed the examination procedures listed in section 415,
                       “Economic Sanctions,” of the OTS Compliance Activities
                       Regulatory Handbook to assess OFAC-related compliance. We also
                       compared current OTS examination guidance for OFAC compliance
                       with the BSA/AML Examination Manual issued by the Federal
                       Financial Institutions Examination Council in June 2005.

                       We judgmentally selected a sample of 12 thrifts and ensured that
                       their OTS examinations included an assessment of OFAC
                       compliance. OFAC compliance examinations for 11 of the 12
                       thrifts were conducted in fiscal years 2003 and 2004. The OFAC
                       examination for 1 of the thrifts was conducted in fiscal year 2002.

                       Our sample included 1 thrift that was penalized by OFAC during
                       the period under review and 3 thrifts that were issued warning
                       letters by OFAC for failing to properly handle prohibited
                       transactions. The remaining thrifts were selected based on asset
                       size and geographic locations.



6
    OIG-02-082 (Apr. 26, 2002).

                       FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 14
                       Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 1
Objective, Scope, and Methodology




We requested copies of the most recent examination work papers
that included a review of OFAC compliance. In addition, we
requested copies of all documentation that may have affected the
scope of the OFAC reviews. The examination records were
compiled by OTS’s Special Counsel and were reviewed at OTS
headquarters in Washington, D.C.

We conducted our audit from January to September 2005 in
accordance with generally accepted government auditing
standards.




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 15
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 2
Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
Core Examination Procedures



Objective

Assess the bank’s risk-based Office of Foreign Assets Control
(OFAC) program to evaluate whether it is appropriate for the
bank’s OFAC risk, taking into consideration its products, services,
customers, transactions, and geographic locations.

Procedures

1. Determine whether the board of directors and senior
   management of the bank have developed polices, procedures,
   and processes based on their risk assessment to ensure
   compliance with OFAC laws and regulations.

2. Regarding the risk assessment, review the bank’s OFAC
   program. Consider the following:

•   The extent of, and method for, conducting OFAC searches of
    each relevant department/business line (e.g., automated clearing
    house (ACH), monetary instruction sales, check cashing, trusts,
    loans, deposits, and investments) as the process may vary from
    one department or business line to another.
•   The extent of, and method for, conducting OFAC searches of
    account parties other than accountholders, which may include
    beneficiaries, guarantors, principals, beneficial owners, nominee
    shareholders, directors, signatories, and power of attorney.
•   How responsibility for OFAC is assigned.
•   Timeliness of obtaining and updating OFAC lists or filtering
    criteria.
•   The appropriateness of the filtering criteria used by the bank to
    reasonably identify OFAC matches (e.g., the extent to which
    the filtering/search criteria includes misspellings and name
    derivations).
•   The process used to investigate potential matches.
•   The process used to block and reject transactions.
•   The process used to inform management of blocked or rejected
    transactions.
•   The adequacy and timeliness of reports to OFAC.




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC         Page 16
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 2
Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
Core Examination Procedures



•   The process to manage blocked accounts (such accounts are
    reported to OFAC and pay a commercially reasonable rate of
    interest).
•   The record retention requirements (i.e., five year requirement to
    retain relevant OFAC records; for blocked property, record
    retention for as long as blocked; once unblocked, records must
    be maintained for five years).

3. Determine the adequacy of independent testing (audit) and
   follow-up procedures.

4. Review the adequacy of the bank’s OFAC training program
   based on the bank’s OFAC risk assessment.

5. Determine whether the bank has adequately addressed
   weaknesses or deficiencies identified by OFAC, auditors or
   regulators.

Transaction Testing

6. On the basis of a bank’s risk assessment, prior examination
   reports, and a review of the bank’s audit findings, select the
   following samples to test the bank’s OFAC program for
   adequacy, as follows:

•   Sample new accounts (e.g., deposit, loan, trust, safe deposit,
    investments, credit cards, and foreign office accounts,) and
    evaluate the filtering process used to search the OFAC database
    (e.g., the timing of the search), and documentation maintained
    evidencing the searches.

•   Sample appropriate transactions that may not be related to an
    account (e.g., funds transfers, monetary instrument sales and
    check cashing transactions), and evaluate the filtering criteria
    used to search the OFAC database, the timing of the search,
    and documentation maintained evidencing the searches.

•   If the bank uses an automated system to conduct searches,
    assess the timing of when updates are made to the system, and
    when the most recent OFAC changes were made to the system.


FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC         Page 17
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 2
Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
Core Examination Procedures


    Also, evaluate whether all of the bank’s databases are run
    against the automated system, and the frequency upon which
    searches are made. If there is any doubt regarding the
    effectiveness of the OFAC filter, then run tests of the system
    by entering test account names that are the same as or similar
    to those recently added to the OFAC list to determine whether
    the system identifies a potential hit.

•   If the bank does not use an automated system, evaluate the
    process used to check the existing customer base against the
    OFAC list and the frequency of such checks.

•   Review a sample of potential OFAC matches and evaluate the
    bank’s resolution and blocking/rejecting processes.

•   Review sample of reports to OFAC and evaluate their
    completeness and timeliness.

•   If the bank is required to maintain blocked accounts, select a
    sample and evaluate that the bank maintains adequate records
    of amounts blocked and ownership of blocked funds, that the
    bank is paying a commercially reasonable rate of interest on all
    blocked accounts, and that it is accurately reporting required
    information annually (by September 30th) to OFAC. Test the
    controls in place to verify that the account is blocked.

•   Pull a sample of false hits (potential matches) to check their
    handling; the resolution of a false hit should take place outside
    of the business line.

7. Identify any potential matches that were not reported to OFAC,
   discuss with bank management, advise bank management to
   immediately notify OFAC of unreported transactions, and
   immediately notify supervisory personnel at your regulatory
   agency.

8. Determine the origin of deficiencies (e.g., training, audit, risk
   assessment, internal controls, management oversight,) and
   conclude on the adequacy of the bank’s OFAC program.



FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC         Page 18
Compliance Was Hampered by Limited Documentation (OIG-06-044)
 Appendix 2
 Bank Secrecy Act/Anti-Money Laundering Examination Manual Excerpt
 Core Examination Procedures


 9. Discuss OFAC related examination findings with bank
    management.

10. Include OFAC conclusions within the report of examination, as
    appropriate.




 FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC         Page 19
 Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 20
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 21
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 4
Major Contributors to This Report




Stephen Syriala, Audit Manager
Thomas Mason, Auditor-In-Charge
Horace Bryan, Referencer
Esther Tepper, Communications Analyst




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 22
Compliance Was Hampered by Limited Documentation (OIG-06-044)
Appendix 5
Report Distribution


Department of the Treasury

Under Secretary, Office of Terrorism and Financial Intelligence
Assistant Secretary, Terrorist Financing and Financial Crimes
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Office of Thrift Supervision

Director

Office of Foreign Assets Control

Director

Office of Management and Budget

OIG Budget Examiner




FOREIGN ASSETS CONTROL: Assessing OTS’s Examination of OFAC     Page 23
Compliance Was Hampered by Limited Documentation (OIG-06-044)
